SEPTEMBER 25, 2012
  AUDIT REPORT




                                                      OFFICE OF AUDITS




          NASA’S PLANS TO MODIFY THE ARES I
          MOBILE LAUNCHER IN SUPPORT OF THE
                SPACE LAUNCH SYSTEM




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-022 (ASSIGNMENT NO. A-12-007-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

GSDO         Ground Systems Development and Operations
MPCV         Multi-Purpose Crew Vehicle
OMB          Office of Management and Budget
RS&H         Reynolds, Smith, and Hill
SLS          Space Launch System


                                                         REPORT NO. IG-12-022
SEPTEMBER 25, 2012




                                                                                            OVERVIEW

   NASA’S PLANS TO MODIFY THE ARES I MOBILE LAUNCHER IN
           SUPPORT OF THE SPACE LAUNCH SYSTEM

                                                                                              The Issue

  NASA’s newest Mobile Launcher was designed and built at Kennedy Space Center to
  support assembly, testing, transportation, and launch of the Constellation Program’s
  Ares I launch vehicle. 1 The Mobile Launcher, completed in August 2010 at a cost of
  $234 million, consists of a two-story base, a 355-foot-tall launch umbilical tower, and
  facility ground support systems that include power, communications, and water.

                                       In February 2010 – before the Mobile Launcher could be
                                       used – the President proposed cancellation of the
                                       Constellation Program and unveiled a new direction for
                                       NASA’s space program. 2 The subsequently enacted NASA
                                       Authorization Act of 2010 (the Act) directed NASA to
                                       design the Space Launch System (SLS), a new heavy-lift
                                       rocket capable of deep space exploration. The Act required
                                       NASA to design the SLS with an initial capability of lifting
                                       payloads weighing between 70 and 100 tons and a fully
                                       evolved capability of lifting 130 tons or more. 3 As a result,
                                       NASA is designing a family of SLS launch vehicles that
                                       will be heavier, larger, and more powerful than the Ares I.
                                       The Act also directed NASA to use, to the extent
                                       practicable, existing investments and infrastructure in
   Figure 1. The Ares I Mobile
   Launcher at Kennedy Space           developing and operating the SLS.
   Center on November 30, 2011.
   (Source: Mr. Neil Berger, Mobile    By August 2011, two NASA-sponsored trade studies
   Launcher Deputy Project Manager)    concluded that the Agency could strengthen and modify the

  1
      NASA established the Constellation Program in response to the National Aeronautics and Space
      Administration Authorization Act of 2005, Public Law 109-155, December 30, 2005, which called for
      development of a crew launch vehicle, heavy launch vehicle, and crew exploration vehicle to return to the
      Moon and serve as a stepping-stone to future exploration of Mars and other destinations.
  2
      In place of Constellation, the President’s budget proposed a program that focused on leveraging advanced
      technology, international partnerships, and commercial capabilities to set the stage for a revitalized
      human space flight program.
  3
      As a comparison, the Satern V rockets used to launch the Apollo missions to the Moon were capable of
      launching 130 tons into low Earth orbit while the Space Shuttle was capable of launching 30 tons into low
      Earth orbit.



REPORT NO. IG-12-022
                                                                                                           OVERVIEW



     Mobile Launcher to support the heavier weight and additional thrust of the SLS.
     According to NASA, not only are the necessary modifications technically feasible, but
     using the Mobile Launcher to support the SLS Program is the most cost-effective
     approach to launching the SLS when compared to modifying one of the three existing
     Space Shuttle Mobile Launcher Platforms or building a new launch platform. 4
     Specifically, preliminary cost estimates found that modifying the Mobile Launcher would
     cost $54 million, modifying the Space Shuttle Mobile Launcher Platforms would cost
     $93 million, and constructing a new mobile launch platform would cost $122 million.

     The SLS Program is in the early stages of design during which NASA officials are
     identifying how the Program will accomplish its goals. 5 Technical details about the
     vehicle’s design are still under development; therefore, the configuration of the launch
     vehicle will evolve as the Program progresses.

     In designing the Mobile Launcher, NASA used $25 million from the American Recovery
     and Reinvestment Act of 2009 (Recovery Act). 6

     The Office of Inspector General initiated this audit to determine whether NASA
     sufficiently evaluated all possible alternatives to ensure that modifying the Mobile
     Launcher in support of the SLS is in the best interest of the Government. We also
     reviewed NASA’s use of and accounting for the $25 million in Recovery Act funds.

     Results

     The OIG found that NASA’s decision to modify the Ares I Mobile Launcher is
     technically feasible and the most cost-effective option for launching at least the initial
     versions of the SLS vehicles. However, further assessment of planned modifications to
     the Mobile Launcher will be needed as the SLS continues to evolve and its design
     solidifies. While NASA performed two trade studies that supported its decision to
     modify the Ares I Mobile Launcher, both studies were based on preliminary assumptions
     and limited information about the configuration of the SLS. Because SLS vehicles will
     increase in size as they evolve, these early studies may not have addressed all the
     challenges or costs associated with launching the larger vehicles. Additionally, the
     SLS, the Orion Multi-Purpose Crew Vehicle (MPCV), and the Ground Systems

     4
         The three Space Shuttle Mobile Launcher Platforms were originally designed and used for the Apollo
         Program and were later modified for the Space Shuttle.
     5
         The SLS Program is in the formulation phase as outlined by NASA Procedural Requirements 7120.5E,
         “NASA Space Flight Program and Project Management Requirements,” August 14, 2012. Project
         formulation consists of developing and defining the project requirements and cost/schedule basis, and
         designing a plan for implementation including an acquisition strategy, contractor selection, and long-lead
         procurement.
     6
         American Recovery and Reinvestment Act of 2009, February 17, 2009. The Act provided funds for job
         preservation and creation, infrastructure investment, energy efficiency and science, assistance to the
         unemployed, and State and local fiscal stabilization.



ii                                                                                          REPORT NO. IG-12-022
OVERVIEW



  Development and Operations (GSDO) programs – the three components of NASA’s
  planned deep space exploration missions – are in relatively early stages of development.
  Successful integration of the three elements will require an interdependent management
  structure (known as an Exploration Systems Integration Strategy) to ensure the programs
  are effectively communicating their individual and collective requirements. Lastly, we
  determined that NASA properly tracked and accounted for its use of Recovery Act funds
  in designing the Mobile Launcher.

  Two Trade Studies Support Decision to Modify the Ares I Mobile Launcher. Two
  NASA-sponsored trade studies compared three mobile launcher options to support the
  SLS: modify the Ares I Mobile Launcher, modify one of the Agency’s three Mobile
  Launcher Platforms previously used by the Space Shuttle Program, or build a new mobile
  launcher. Based on the studies, the Agency concluded that modifying the Ares I Mobile
  Launcher was the most cost-effective alternative. The two studies’ cost estimates for
  modifying the Ares I Mobile Launcher – $54 million and $74 million – are not directly
  comparable due in part to differences in assumptions about the launch vehicles that
  would use the Mobile Launcher and whether the Mobile Launcher would include a tower
  to support the launch vehicles.

  NASA’s Decision to Modify the Mobile Launcher Was Based on Limited
  Information and Preliminary Assumptions. The two trade studies that NASA relied
  on to support its decision to modify the Mobile Launcher were based on limited
  information and preliminary assumptions that may not address all challenges or costs
  associated with launching the larger evolved version of the SLS. 7 Both studies relied on
  information available at the time and, because the SLS vehicle configurations are still
  being formulated, some technical details have changed since the studies were performed
  while other details have not yet been decided. The scope of the two studies also varied in
  that one study did not evaluate modifications that may need to be made to the tower,
  while the other included tower modifications that it concluded will be necessary for the
  Mobile Launcher to launch the SLS.

  In addition to the unknown cost and schedule impact of tower modifications that may be
  needed to launch the fully evolved 130-ton SLS, NASA plans to use new, advanced
  booster technology currently under development for the 130-ton vehicle. Neither study
  included the possible impacts to the Mobile Launcher that such new technology might
  pose. As such, the potential exists that the requirements to support the new booster may
  exceed the capabilities of the Mobile Launcher and require NASA to construct an entirely
  new launch platform.

  Because additional modifications to the Mobile Launcher may be required as the SLS
  Program matures and the vehicle’s design changes, it is imperative that NASA routinely
  update the planned modifications and corresponding cost estimates throughout the life

  7
      The studies found that all three options are equally technically feasible. As a result, cost and schedule
      were the primary determining factors.



REPORT NO. IG-12-022                                                                                              iii
                                                                                                          OVERVIEW



     cycle of the SLS Program. Such an ongoing review will help identify technical risks and
     enable the Agency to better understand the full life-cycle costs of necessary modifications
     to the Mobile Launcher.

     Continued Development of an Exploration Systems Integration Strategy Is Needed
     to Ensure the Mobile Launcher’s Success. The evolving configuration requirements
     for the SLS require ongoing coordination among three programs – SLS, Orion MPCV,
     and GSDO. 8 The three programs are in different stages of development and the necessity
     of an interdependent management structure is a significant change for most NASA
     employees assigned to the programs, many of whom previously worked for the Space
     Shuttle Program while it was in operations mode for the past 30 years. Moreover, the
     three programs are managed from three different NASA Centers, further complicating
     integration efforts. History has shown that failing to establish firm project requirements
     early in a project’s life cycle often results in cost overruns and can delay the completion
     of a project. To address these challenges, NASA is developing an Exploration Systems
     Integration structure to assist the three programs in effectively communicating their
     requirements. As of September 2012, NASA was finalizing the key documents that will
     define the Exploration Systems Integration structure and govern how it will operate.

     In our judgment, development of an effective Exploration Systems Integration structure
     that includes baseline technical agreements is essential to ensure that requirements are
     effectively communicated among the SLS, MPCV, and GSDO programs. Additionally, a
     well-coordinated management structure will help ensure that each program reassesses the
     budget and cost implications of changing assumptions and configurations as the SLS
     Program evolves.

     Recovery Act Funds Appropriately Used for Mobile Launcher. In 2009, NASA
     allocated $25 million in Recovery Act funds to advance design work for the Mobile
     Launcher. We found that NASA properly tracked and accounted for use of those funds.

     Conclusion

     NASA’s decision to modify the Ares I Mobile Launcher is technically feasible and the
     most cost-effective option for launching the initial SLS vehicles. However, NASA’s
     ability to identify additional technical risks of modifying the Mobile Launcher and
     accurately estimate future operating costs throughout the SLS Program’s life cycle is
     diminished by the relative immaturity of the SLS Program and evolvable nature of the
     SLS vehicles. NASA must develop a well-functioning Exploration Systems Integration
     structure to monitor the planned modifications and corresponding cost estimates

     8
         The Orion MPCV Program at Johnson Space Center is building the exploration vehicle that will carry the
         crew to space. The GSDO Program at Kennedy Space Center manages the ground systems and
         infrastructure, including the Ares I Mobile Launcher, to process and launch the next generation of rockets
         and spacecraft in support of NASA’s exploration objectives. The SLS Program is based at Marshall
         Space Flight Center.



iv                                                                                         REPORT NO. IG-12-022
OVERVIEW



  throughout the programs’ life cycles. Failure of the SLS, GSDO, and MPCV programs to
  effectively communicate their requirements will compromise the accuracy of the Mobile
  Launcher’s budget and schedule estimates and ultimately the utility of the Mobile
  Launcher as the SLS Program evolves.

                                                               Management Action

  We are not making specific recommendations for corrective action, but believe NASA
  should assess and update the planned Mobile Launcher modifications throughout its life
  and the life of the SLS Program to ensure that all technical risks are identified and
  addressed and the true life-cycle costs of the modifications are understood. In discussing
  a draft of this report, the Deputy Associate Administrator for NASA’s Exploration
  Systems Development Division stated that his office is developing the Exploration
  Systems Integration structure to ensure that the SLS, MPCV, and GSDO programs are
  effectively communicating requirements as the SLS Program evolves.




REPORT NO. IG-12-022                                                                           v
SEPTEMBER 25, 2012




                                                       CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 4

  RESULTS
      Modifying Ares I Launcher Most Cost-Effective Option, but
        Additional Assessment Needed as the Space Launch System
        Program Evolves ___________________________________ 5

  APPENDIX A
      Scope and Methodology _______________________________ 13
      Review of Internal Controls ____________________________ 16

  APPENDIX B
      Management Comments ______________________________ 17

  APPENDIX C
      Report Distribution ___________________________________ 18




REPORT NO. IG-12-022
SEPTEMBER 25, 2012




                                                                                    INTRODUCTION


Background

  NASA built the Mobile Launcher specifically for the Constellation Program’s crew
  launch vehicle known as Ares I and the platform would not have been used to launch the
  Constellation Program’s heavy lift vehicle, Ares V. The Mobile Launcher structure took
  2 years to construct and was completed in August 2010 at a cost of $234 million. 9 In
  October 2010, before NASA could use the Mobile Launcher, Congress cancelled the
  Constellation Program, including the Ares I launch vehicle, and directed NASA to
  develop a heavy-lift rocket called the Space Launch System (SLS) that will carry
  astronauts beyond low Earth orbit and provide the cornerstone for America’s future
  human space exploration efforts. 10 Congress also directed NASA to use, to the extent
  practicable, existing investments and infrastructure in developing and operating the SLS.

  Because the Mobile Launcher was originally designed for the Ares I rocket, it will
  require significant modifications to support the much heavier SLS. In order to evaluate
  its options for platforms to launch the SLS, officials at Kennedy Space Center (Kennedy)
  initiated two trade studies in 2010, one conducted by NASA staff, the other by a
  contractor.

  Based on the results of the studies, the Agency concluded that modifying the Ares I
  Mobile Launcher was the best, most cost-effective option to both meet the initial needs of
  the SLS and salvage at least some of the $234 million spent to build the Ares I Mobile
  Launcher. In May 2011, Kennedy officially decided to use the Ares I Mobile Launcher
  to support the SLS, and the NASA Administrator concurred with the decision in
  June 2011. As previously discussed, re-engineering the Ares I Mobile Launcher for the
  SLS complied with Congress’ direction to use existing infrastructure for the SLS to the
  extent practicable.

  The launcher will support the assembly, testing, check out, and servicing of the rocket, as
  well as enable its transfer to the launch pad and provide the platform from which it will
  launch. The launch of the initial SLS rocket is scheduled for December 2017. The
  specific processes and criteria the Agency used for selecting the Ares I Mobile Launcher
  to support the SLS are discussed in the Results section of this report.


  9
      The $234 million is the combined value of all the contracts for the Ares I Mobile Launcher’s design,
      construction, and operational readiness from inception through completion of construction in August
      2010.
  10
       National Aeronautics and Space Administration Authorization Act of 2010, Public Law 111-267,
       October 11, 2010.



REPORT NO. IG-12-022                                                                                         1
                                                                                                   INTRODUCTION



    Design modifications to retrofit the Mobile Launcher for use by the SLS began in
    February 2012. The primary work that the Ground Systems Development and Operations
    (GSDO) Program at Kennedy must undertake includes strengthening the supports in the
    base and widening the exhaust port. 11 The GSDO Program plans to complete these
    modifications in February 2015 at an estimated cost of $62 million. The installation of
    ground support equipment (propellants, gases, power, and communications) is scheduled
    for completion in September 2016 at an estimated cost of $105 million. 12 Finally, the
    GSDO Program plans to complete validation and activation of the Mobile Launcher in
    March 2017 (approximately 9 months before the initial launch of an SLS vehicle) at an
    estimated cost of $7 million. The total estimated cost for the three actions is
    $174 million.

    The modifications to the Ares I Mobile Launcher are necessary because planned versions
    of the SLS rockets are larger, heavier, and a different configuration than the Ares I rocket
    that the Mobile Launcher was initially designed to support. The NASA Authorization
    Act of 2010 required NASA to design the SLS with an initial capability of lifting
    payloads weighing between 70 and 100 tons and a fully evolved capability of 130 tons or
    more. As a result, NASA is designing a family of SLS rockets that will evolve over time.
    The initial 70-ton rocket is planned for cargo missions in 2017 and crewed missions in
    2021. The next version will be capable of lifting 105 tons and will be used for missions
    in 2023 and 2025. The fully evolved version will be capable of lifting 130 tons for
    launches in the 2030 timeframe. Although the 105-ton and 130-ton vehicles are being
    designed to meet a variety of crew and cargo missions, the specific configurations of
    these vehicles is currently under discussion.

    As the SLS Program evolves, the vehicle will increase in height and weight. As shown in
    Figure 2, NASA estimates that the initial 70-ton rocket will be about 320 feet tall with a
    gross liftoff weight of 5.8 million pounds. The 105-ton version will be slightly larger at
    336 feet tall with a gross liftoff weight of 5.9 million pounds. Finally, the fully evolved
    130-ton rocket will be about 389 feet tall with a gross liftoff weight of 6.9 million
    pounds. When compared to the Ares I rocket, the initial SLS rocket will be about the
    same height, but weigh more than twice as much, and the fully evolved SLS will be
    nearly 75 feet taller and three times heavier. The heavier weight of the SLS rockets
    necessitates strengthening the supports in the Mobile Launcher base.




    11
         The GSDO Program manages ground systems and infrastructure at Kennedy to support the launch of
         rockets and spacecraft in support of NASA’s exploration objectives.
    12
         The installation cost does not include the cost of the ground support equipment because the Agency is
         still determining which specific equipment to install.



2                                                                                         REPORT NO. IG-12-022
INTRODUCTION




  Figure 2. Comparison of Ares I launch vehicle and planned versions of the SLS.


  In addition to being bigger and heavier, the SLS rockets are of a different configuration
  than the Ares I rocket. The SLS rockets will have two boosters attached to a core stage,
  while the Ares I rocket was an in-line, two-stage rocket configuration. The addition of
  the two rocket boosters on the SLS design necessitates expansion of the exhaust port on
  the Mobile Launcher base from a 22-foot square to a 60-foot-by-30-foot rectangle.

  The SLS Program is in what NASA calls the formulation phase during which officials
  assess the program’s risk, feasibility, and technology; develop operations concepts and
  acquisition strategies; establish high-level requirements and success criteria; and prepare
  plans, budgets, and schedules. 13 Additionally, as previously described, the launch vehicle
  will evolve as the Program progresses. Therefore, key technical details about the
  vehicle’s design and configuration and how it will interface with the Mobile Launcher
  and ground support equipment are under discussion. For example, due to the planned
  varying heights of the SLS as it evolves, changes are expected in the vertical position of
  different stages of the rocket and, therefore, the placement of vehicle umbilicals on the

  13
       NASA Procedural Requirements 7120.5E, “NASA Space Flight Program and Project Management
       Requirements,” August 14, 2012.



REPORT NO. IG-12-022                                                                             3
                                                                                                     INTRODUCTION



    Mobile Launcher tower. 14 Additionally, the height of the Orion Multi-Purpose Crew
    Vehicle (MPCV), which will sit atop the SLS for crewed missions, may change and that
    would affect the location of the Mobile Launcher tower’s crew access arm and the crew
    emergency egress system. 15

    In 2009, NASA received $1 billion from the American Recovery and Reinvestment Act
    (Recovery Act) and allocated $25 million to support design of the Mobile Launcher. The
    Recovery Act was signed into law on February 17, 2009, to help jumpstart the U.S.
    economy, preserve or create jobs, and spur technological advances in science and health.


Objectives

    We evaluated NASA’s plans for the Ares I Mobile Launcher to determine whether the
    Agency sufficiently evaluated all options before deciding that modifying it in support of
    the SLS was in the best interest of the Government. We also examined whether NASA
    properly tracked and accounted for Recovery Act funds associated with the Mobile
    Launcher and reviewed internal controls as they relate to the overall objective. See
    Appendix A for details of the audit’s scope and methodology and our review of internal
    controls.




    14
         Launch stand umbilicals interface with the spacecraft and provide the electrical, gas, and fluids support
         necessary for launch.
    15
         The crew access arm will allow personnel to enter the MPCV from the Mobile Launcher tower. The
         emergency egress system is the means by which crew would evacuate the tower in the event of a launch
         emergency.



4                                                                                           REPORT NO. IG-12-022
RESULTS




                                     MODIFYING ARES I LAUNCHER MOST
                               COST-EFFECTIVE OPTION, BUT ADDITIONAL
                               ASSESSMENT NEEDED AS THE SPACE LAUNCH
                                            SYSTEM PROGRAM EVOLVES

             NASA’s decision to modify the Ares I Mobile Launcher is technically feasible and
             the most cost-effective option for launching at least the initial versions of the SLS
             vehicles. However, the two studies and corresponding cost estimates that NASA
             used to support its decision were based on preliminary assumptions and limited
             information. As a result, the studies may not have addressed all challenges or costs
             associated with launching the planned larger versions of the SLS rockets. Because
             additional modifications to the Mobile Launcher may be required as the SLS
             Program matures, it is imperative that NASA update the planned modifications and
             corresponding cost estimates throughout the life of the SLS Program. In addition,
             given the relative immaturity of the SLS Program and NASA’s ongoing SLS
             development efforts, it is essential that SLS, Orion MPCV, and GSDO program
             officials effectively communicate launch vehicle, spacecraft, and ground systems
             requirements to ensure the success of each program. Lastly, we found that NASA
             properly tracked and accounted for Recovery Act funds used to design the Mobile
             Launcher.


Two Trade Studies Support Decision to Modify the Ares I Mobile
  Launcher

  Two NASA-sponsored trade studies compared three mobile launcher options to support
  the SLS: modify the Ares I Mobile Launcher, modify one of the Agency’s three Mobile
  Launcher Platforms used in the Space Shuttle Program, or build a new mobile launcher.
  Based on the studies, the Agency concluded that modifying the Ares I Mobile Launcher
  proved the best and most cost-effective option.

  The first trade study was an internal study conducted by Kennedy and contractor
  personnel initiated in October 2010 to evaluate options, selection criteria, and
  requirements for development of a mobile launcher for a heavy lift launch vehicle. The
  team reported their initial findings in March 2011 and concluded that each of the three
  options under examination were technically feasible. 16 The study’s cost estimates
  indicated that modifying the Ares I Mobile Launcher would be the lowest cost option
  ($54 million) followed by modifying the Space Shuttle Mobile Launcher Platform
  ($93 million) and finally building a new mobile launcher ($122 million). 17 The cost
  16
       “2011 Mobile Launcher Structure Trade Study – Initial Findings,” KSC-NE 11477, March 2011.
  17
       “2011 Mobile Launcher Structure Trade Study – Initial Findings, Volume 2, Cost Annex,” KSC-NE
       11477 Volume 2, April 2011.



REPORT NO. IG-12-022                                                                                   5
                                                                                                 RESULTS



    evaluations for the Ares I Mobile Launcher and Space Shuttle Mobile Launcher Platform
    were limited to modifying the base; none of the three cost evaluations included estimates
    for installation of ground support equipment.

    The second study, conducted by Reynolds, Smith, and Hill (RS&H), a facilities,
    infrastructure, and aviation consulting firm with more than 40 years’ experience in
    designing NASA launch platforms, examined mobile launcher and launch pad concepts
    to support a variety of launch vehicle concepts developed under the SLS architecture.
    RS&H reported the results of its study in August 2011 and estimated that the cost of
    modifying the base and tower of the Ares I Mobile Launcher to launch the 70-ton version
    of the SLS vehicle would be $74 million. 18 The estimate did not include the cost of
    installing ground support equipment.

    The two studies’ cost estimates for modifying the Ares I Mobile Launcher ($54 million
    and $74 million) are not directly comparable due to differences in assumptions about the
    launch vehicles that would use the Mobile Launcher and whether the Mobile Launcher
    would include a tower or merely a base.


Trade Studies Were Based on Limited Information and
  Preliminary Assumptions

    The two trade studies relied on preliminary assumptions about the launch vehicles and
    Mobile Launcher tower because they were initiated before NASA had decided on the
    launch vehicles that would use the Mobile Launcher and whether the Mobile Launcher
    would include a tower. GSDO estimated that it would take 6 years to modify, outfit, and
    activate the Ares I Mobile Launcher or a Space Shuttle Mobile Launcher Platform and
    7 years to build a new mobile launcher for the SLS Program. Delaying initiation of the
    studies until June 2011, when the NASA Administrator approved the SLS launch vehicle
    architecture, would have jeopardized GSDO’s ability to support a 2017 launch. Figure 3
    shows significant dates affecting the development of the Mobile Launcher and its
    projected life-cycle timeline.




    18
         “Study: Space Launch System Heavy Lift Launch Vehicle Mobile Launcher and Launch Pad,” KSC-NE-
         11533, August 22, 2011.



6                                                                                 REPORT NO. IG-12-022
RESULTS




  Figure 3. Projected Mobile Launcher life-cycle timeline.




  Internal Trade Study. NASA’s internal study examined only required modifications to
  the Ares I Mobile Launcher’s base and did not review needed modifications to the tower.
  Kennedy officials describe the internal trade study as “a snapshot in time” and the study
  itself states that “Because the initial phase of the effort was to be small in scope and short
  in duration, basic assumptions about the Mobile Launcher were identified to make the
  task manageable.”

  According to GSDO officials, the study was limited to modifications to the base because
  one option being considered at the time was to operate the SLS launch platform without a
  tower. In fact, the team’s trade study included the cost of removing the Ares I Mobile
  Launcher’s tower because they assumed it would not be needed. 19 NASA has since
  decided to retain the Mobile Launcher’s tower to assist with launching the SLS.

  In addition, Kennedy based its study cost estimates on a version of SLS capable of
  launching payloads of 110 tons even though NASA does not now plan to launch a 110-
  ton version of the SLS vehicle. Members of the study team told us that the assumptions
  they made for the 110-ton vehicle provided the most reasonable assurance that the
  required launch platform modifications would accommodate all evolutions of the SLS.
  However, the fully evolved 130-ton version of the SLS will be 53 feet taller than the
  110-ton version the team assessed, and the assessment team did not evaluate the impact
  this height difference might have on the launch platform or the Mobile Launcher tower.



  19
       The estimated costs to remove the tower did not play a role in NASA’s final decision to modify the
       Ares I Mobile Launcher.



REPORT NO. IG-12-022                                                                                        7
                                                                                                 RESULTS



    External Trade Study. The initial purpose of the external trade study was to evaluate
    the feasibility and compare the costs of modifying the Ares I Mobile Launcher,
    modifying a Space Shuttle Mobile Launcher Platform, or constructing a new launch
    platform to support several heavy lift launch vehicle concepts being considered for the
    SLS Program. These concepts included four reference vehicle “teams”:

           •   Team 1 was a Shuttle-derived heavy lift launch vehicle;

           •   Team 2 was a liquid-only heavy lift launch vehicle;

           •   Team 3 was a clustered Atlas V and Delta IV configuration;

           •   Team 4 was a combination of a Shuttle-derived heavy lift launch vehicle and a
               clustered Atlas V configuration.

    However, before RS&H could complete their study of launch platform requirements for
    all SLS architectures under consideration, the NASA Administrator decided in June 2011
    to use a Shuttle-derived configuration for the SLS. 20 In making this decision, the
    Administrator also approved plans to modify the Ares I Mobile Launcher to support
    SLS launches based on the internal trade study.

    Following the Administrator’s decision, NASA requested RS&H to develop a cost
    estimate for the modifications needed on the Ares I Mobile Launcher to launch the 70-ton
    and 130-ton versions of the SLS. NASA limited the company’s analysis and cost
    estimates only to the modified Ares I Mobile Launcher and did not ask RS&H to
    compare the cost of modifying the Ares I Mobile Launcher with the cost of modifying an
    existing Space Shuttle Mobile Launcher Platform or constructing a new launch platform.
    However, company officials told us that based on their knowledge of the options, they
    “very likely” would have concluded that modifying the Ares I Mobile Launcher was the
    most cost-effective option, at least for the 70-ton version of the SLS.

    In their August 2011 report, RS&H estimated it would cost approximately $74 million to
    modify the Ares I Mobile Launcher for the initial version of the SLS. Unlike the trade
    study performed by NASA engineers, this estimate included the cost to modify the
    launcher’s tower. According to the company’s report, tower modifications for the initial
    SLS vehicle should include adaptations for a crew access arm and the emergency egress
    system.

    The RS&H study also noted that crewed missions using the larger SLS vehicle would
    require “an additional level on top of the tower with accommodations for a crew access
    arm at the higher level including a repositioned porch for the [emergency egress
    system].” NASA officials told us that they have not yet estimated the costs to modify the
    Mobile Launcher tower modifications to launch the fully evolved 130-ton SLS vehicle

    20
         “MPCV, SLS, 21st [Century Ground Systems] Pre-Formulation Decision Memorandum,” signed by the
         NASA Administrator on June 20, 2011.



8                                                                                 REPORT NO. IG-12-022
RESULTS



  because the exact vehicle configuration has not yet been decided. Additionally, SLS
  managers have not yet decided whether the 130-ton SLS vehicle will be used for crewed
  missions. That decision will have a significant impact on the tower modifications that
  will be needed to launch the fully evolved 130-ton version of the SLS.

  Trade Studies Did Not Evaluate Impact of New Booster Technology. Given that the
  fully evolved 130-ton rocket is not scheduled for its first launch until 2030, we
  acknowledge that it is premature to build a launch platform for a rocket that is not
  scheduled to launch for another 18 years. However, NASA is moving forward to
  maximize its use of the $234 million spent on the Ares I Mobile Launcher by repurposing
  it for use with at least the initial versions of the SLS. Whether the fully evolved 130-ton
  version of the SLS will be able to be launched from this same modified platform or
  whether it will require a different launch platform is an open question that will be driven
  by the final design of the 130-ton rocket.

  For example, NASA plans to use advanced booster technology for the 130-ton vehicle to
  provide a significant increase in thrust compared to currently available liquid or solid
  boosters. Neither the internal or external trade study included the possible impact of
  using advanced rocket boosters on the costs or feasibility of modifying the Ares I Mobile
  Launcher. Therefore, it is possible that the requirements to support the 130-ton booster
  rocket could exceed the capabilities of the redesigned Mobile Launcher, which would
  require NASA to either construct an entirely new launch platform or further modify the
  former Ares I Mobile Launcher.

  Because additional modifications to the Mobile Launcher may be required as the SLS
  Program matures, it is imperative that NASA continue to assess and update its planned
  modifications and corresponding cost estimates. Without such continual assessments, it
  will be difficult for the Agency to identify and address all technical risks and understand
  the true life-cycle costs of any required modifications to the Mobile Launcher, including
  the potential expense of building an entirely new launch platform for the 130-ton SLS
  vehicle.


Continued Development of an Exploration Systems Integration
  Strategy Needed to Ensure the Mobile Launcher’s Success

  According to the Deputy Associate Administrator for NASA’s Exploration Systems
  Development Division, the management structure created for the development and launch
  of NASA’s heavy lift vehicle is a significant departure from how the Agency managed
  the Space Shuttle Program. He explained that the Space Shuttle Program had been in
  operations mode for almost 30 years and consequently most current NASA employees
  were not working for the Program during its development phase. Under the Space
  Shuttle Program, the authority to make key program decisions was generally limited to
  senior-level managers. The Deputy Associate Administrator stated that requiring high-
  level decision making when a space program is in operations mode is appropriate. He


REPORT NO. IG-12-022                                                                            9
                                                                                                           RESULTS



     explained that the consequences to the decisions that were made when the Space Shuttle
     was operational frequently involved crew safety, and were more significant than the
     decisions that are commonly made when a program is in the development phase.
     Although this process helped Space Shuttle managers ensure that they made informed
     and accurate decisions based on program-wide information, a common complaint was
     that it was not relatively efficient and not well suited for a program in the development
     phase.

     The Agency’s heavy lift program requires close coordination among three primary
     entities – the SLS, MPCV, and GSDO programs. To enhance efficiency, senior
     managers have delegated authority to program-level managers to make decisions that, at
     least in the Space Shuttle Program, were only allowed to be made by senior-level
     managers. Although “pushing down” the decision-making authority could increase the
     programs’ efficiency, it increases the risk that one program makes decisions without fully
     evaluating their impact on the other two programs. Additionally, the three programs are
     at different stages in development and are managed from three different NASA Centers,
     further complicating coordination efforts.

     During our audit, SLS officials shared a significant amount of potential launch vehicle
     requirements for GSDO personnel to evaluate. Some of these initial requirements were
     close to exceeding ground system capabilities, such as a proposed vehicle too tall to fit
     through the doors of the Vehicle Assembly Building or too heavy for Kennedy’s
     Crawler-Transporters. 21 Although it appears that program personnel have resolved these
     issues for the initial versions of the vehicle, the SLS will continue to evolve and
     requirements will change. As this evolution occurs, MPCV requirements will also affect
     the Mobile Launcher, adding an additional layer of complexity with integration efforts
     among the SLS, MPCV, and GSDO programs.

     NASA’s ability to effectively communicate launch vehicle, spacecraft, and ground
     systems requirements between the SLS, MPCV, and GSDO programs will be challenging
     given the change in management structure, the relative immaturity of the SLS Program,
     and NASA’s ongoing SLS development efforts. NASA has recognized these challenges
     and is establishing an Exploration Systems Integration structure to assist the three
     programs in effectively communicating their requirements. As of September 2012, the
     Agency was in the process of formalizing the key documents that will define the
     Exploration Systems structure and govern how it will operate. The Deputy Associate
     Administrator for NASA’s Exploration Systems Development Division estimates that
     NASA will complete the Exploration Systems Integration Structure in time to support the




     21
          A Crawler-Transporter is a tracked vehicle used to transport a rocket and its Mobile Launcher from the
          Vehicle Assembly Building to launch pads at Kennedy.



10                                                                                         REPORT NO. IG-12-022
RESULTS



  Cross-Program System Definition Review scheduled for the first quarter of fiscal
  year 2013. 22

  The development of an effective Exploration Systems Integration structure is essential to
  ensure that requirements and decisions are communicated between the SLS, MPCV, and
  GSDO programs. Additionally, if properly functioning this structure can help ensure that
  each program reassesses the budget and cost implications of changing assumptions and
  configurations as the SLS Program evolves.


Recovery Act Funds Were Appropriately Used for Mobile Launcher

  The Recovery Act was signed into law on February 17, 2009, as a way to jumpstart the
  U.S. economy, preserve or create jobs, and spur technological advances in science and
  health. In 2009, NASA received $1 billion from the Recovery Act and officials allocated
  $25 million to the Mobile Launcher to support its engineering design.

  Our review of the use of these funds found that NASA generally met cost, schedule, and
  performance milestones for the Mobile Launcher project. In addition, the project
  adequately addressed the reporting requirements of the Recovery Act and related Office
  of Management and Budget (OMB) guidance. Consequently, we determined that
  NASA’s use and reporting of Recovery Act funds for the Mobile Launcher was
  appropriate.


Conclusion

  NASA’s decision to modify the Ares I Mobile Launcher to launch the SLS, the Agency’s
  heavy-lift rocket for deep space exploration, is technically feasible and the most cost-
  effective option for launching the initial SLS vehicles. However, NASA’s ability to
  identify additional technical risks of modifying the Mobile Launcher and accurately
  estimate future operating costs throughout the SLS Program’s life cycle is diminished by
  the relative immaturity of the SLS Program and the evolvable nature of the SLS vehicles.

  NASA must develop a well-functioning Exploration Systems Integration Strategy to
  monitor the planned modifications and corresponding cost estimates throughout all three
  programs’ life cycles. Failure of the SLS, GSDO, and MPCV programs to effectively
  communicate their requirements will compromise the accuracy of the Mobile Launcher’s
  budget and schedule estimates and ultimately the utility of the Mobile Launcher as the
  SLS Program evolves.

  22
       According to NASA’s Space Flight Program and Project Management requirements, the System
       Definition Review determines whether the maturity of the program’s definition and associated plans are
       sufficient to begin implementation. At the time of the System Definition Review, programs should be in
       place and stable; have adequately completed formulation phase activities; and have an acceptable plan
       for the implementation phase.



REPORT NO. IG-12-022                                                                                            11
                                                                                          RESULTS



Management Action

     We are not making specific recommendations for corrective action, but believe NASA
     should assess and update the planned Mobile Launcher modifications throughout its life
     and the life of the SLS Program to ensure that all technical risks are identified and
     addressed and the true life-cycle costs of the modifications are understood. In discussing
     a draft of this report, the Deputy Associate Administrator for NASA’s Exploration
     Systems Development Division stated that his office is developing the Exploration
     Systems Integration structure to ensure that the SLS, MPCV, and GSDO programs are
     effectively communicating requirements as the SLS Program evolves.




12                                                                         REPORT NO. IG-12-022
APPENDIXES




                                                                       APPENDIX A


Scope and Methodology

  We performed this audit from November 2011 through September 2012 in accordance
  with generally accepted government auditing standards. Those standards require that we
  plan and perform the audit to obtain sufficient, appropriate evidence to provide a
  reasonable basis for our findings and conclusions based on our audit objectives. We
  believe that the evidence obtained provides a reasonable basis for our findings and
  conclusions based on our audit objectives.

  The audit included reviews of two distinct areas: NASA’s plans for the Mobile Launcher
  and its accounting for use of American Recovery and Reinvestment Act (Recovery Act)
  funds on the Mobile Launcher project. We separated our audit work along these two
  areas, with separate scopes and methodologies for each.

  NASA’s Plans for the Mobile Launcher. The scope for this review was NASA’s
  decision to modify the Ares I Mobile Launcher for use with the SLS. The scope included
  the processes NASA used to select the Ares I Mobile Launcher as the launch platform for
  the SLS, the technical feasibility of the planned modifications to the Mobile Launcher,
  challenges that might hinder the planned modifications, and alternative uses for the
  Mobile Launcher. For this review, we conducted audit work at Kennedy, NASA
  Headquarters, and Marshall Space Flight Center.

  To accomplish our reviews of the processes that NASA used to select the Mobile
  Launcher and the technical feasibility of the planned modifications, we interviewed
  appropriate NASA and RS&H officials and reviewed records related to the selection
  process. We also interviewed NASA officials with the Human Exploration and
  Operations Mission Directorate, the GSDO Program, and various Kennedy offices.
  Mission Directorate and GSDO Program officials interviewed included the Mission
  Directorate’s Deputy Associate Administrator for the Exploration Systems Development
  Division, the Manager for GSDO’s Vehicle Integration and Launch Integration Product
  Team, and the Manager for the Mobile Launcher Project. Kennedy officials interviewed
  included the Center’s Vehicle Integration and Launch Chief Engineer and the Cost
  Analyst who developed the Agency’s cost estimate for modifying the Mobile Launcher.
  RS&H officials interviewed included a Senior Vice President and a Vice President with
  the company’s Aerospace Services Group.




REPORT NO. IG-12-022                                                                        13
                                                                                                 APPENDIX A



     The records we reviewed included NASA-sponsored trade studies and Kennedy
     architecture refinement cycle reviews:

            •   Trade Study KSC-NE-11477, “2011 Mobile Launcher Structure Trade Study -
                Initial Findings,” March 2011, and “2011 Mobile Launcher Structure Trade
                Study - Initial Findings, Volume 2: Cost Annex,” April 2011;
            •   Trade Study KSC-NE-11533, “Study: Space Launch System Heavy Lift Launch
                Vehicle Mobile Launcher and Launch Pad,” August 22, 2011;
            •   “21st Century Space Launch Complex Architecture Refinement Cycle 4.0 Final,”
                February 15-17, 2011;
            •   “21st Century Space Launch Complex Architecture Refinement Cycle 5.0,
                Closing the Ground Operations Architecture, Final PoD [Point of Departure]
                Architecture Review,” May 26, 2011.

     To accomplish our review of challenges that might hinder the planned modifications, we
     interviewed appropriate NASA officials and reviewed records related to potential risks to
     successful completion of the planned modifications. In addition to interviewing the
     aforementioned Mission Directorate and GSDO Program officials, we interviewed the
     Chief Engineer and the Lead Systems Engineer for the SLS Program. The records we
     reviewed included the GSDO Program’s list of Mobile Launcher associated risks and a
     Booz Allen Hamilton assessment of cost and schedule estimates that the GSDO Program
     used to evaluate candidates for NASA’s post-Space Shuttle manned space flight
     architecture. 23

     To accomplish our review of alternative uses for the Mobile Launcher, we interviewed
     appropriate NASA officials and reviewed records identifying commercial companies
     interested in using the Mobile Launcher for their respective launch vehicles. NASA
     officials interviewed included the Program Manager for the Agency’s Commercial Crew
     Program and the Manager of Kennedy’s Partnerships Development Office. The records
     we reviewed included a statement of interest in Kennedy assets submitted by ATK Space
     Launch Systems and Kennedy’s response to ATK’s statement of interest. 24,25

     Recovery Act Funds Associated with the Mobile Launcher. The review examined the
     $25 million in Recovery Act funds NASA used toward the engineering design of the
     Mobile Launcher’s mechanical, fluid, and electrical subsystems. The scope included
     NASA’s management, distribution, use, reporting, and closeout of these Recovery Act


     23
          “Independent Cost Assessment of the Space Launch System, Multi-Purpose Crew Vehicle and 21st
          Century Ground Systems Programs, Final Report,” August 19, 2011. Booz Allen Hamilton is a
          consulting firm that provides management and technology consulting services.
     24
          “ATK Space Launch Systems’ Statement of Interest for KSC Assets,” February 21, 2011. ATK is an
          aerospace firm interested in providing a launch system under NASA’s Commercial Crew Program.
     25
          “KSC Comprehensive Response to ATK’s Request for Use of Government Assets,” August 12, 2011.



14                                                                                   REPORT NO. IG-12-022
APPENDIX A



  funds. For this review, we conducted audit work at Kennedy, the NASA Shared Services
  Center, and NASA Headquarters.

  To accomplish our review we interviewed appropriate NASA officials, reviewed
  applicable records, and verified compliance with Recovery Act requirements. NASA
  officials interviewed included the Agency’s Recovery Act Implementation Executive, the
  Mobile Launcher Program Manager, and the Kennedy Supervisory Accountant
  responsible for tracking Recovery Act funds. We also interviewed the NASA Shared
  Services Center Accounts Payable Lead responsible for the SAP accounting internal
  control processes that NASA put into place for Recovery Act compliance.

  The records we reviewed included the Agency’s Recovery Act guidance, fund-related
  plans, contractual documents, status reports, and billing documents:

        •   Procurement Information Circular (PIC) 09-06H, “Contracting with Recovery Act
            Funds including deviation to FAR and NFS Quick Closeout Procedures,”
            November 23, 2010;

        •   “Recovery Act Plan for Constellation Ground Operations - Mobile Launcher
            Design,” August 21, 2009;

        •   Task orders under which the Recovery Act-related work was performed; 26

        •   Monthly technical and financial status reports, as well as quarterly status reports,
            submitted by the contractor performing the Recovery Act-related work; and

        •   Contractor invoices billed to NASA for the Recovery Act work performed.

  To assess compliance with Recovery Act requirements we verified:

        •   Agency payments and accounting entries matched amounts on contractor invoices
            for the Recovery Act work;

        •   Quarterly reports were submitted on time using a central government-wide data
            collection system for Federal Agencies and Recipients of Federal awards per the
            Recovery Act;

        •   Key milestones and deliverables were met;

        •   Recovery Act funds were expended and final invoices received; and

        •   Mobile Launcher Project status was marked “Fully Complete” in
            FederalReporting.gov.

  26
       Task Order Numbers 625, 626, and 627 under NASA Contract Number NAS10-03006 with ASRC
       Aerospace Corporation.



REPORT NO. IG-12-022                                                                               15
                                                                                                APPENDIX A



     Use of Computer-Processed Data. We did not use computer-processed data to perform
     the review of NASA Plans for the Mobile Launcher, but did use data from SAP (NASA’s
     financial system) for the review of Recovery Act funds associated with the Mobile
     Launcher. As part of the review, we compared data from source documents against the
     data in the financial system. Based on the results of those comparisons, we concluded
     that the data was valid and reliable for the purposes of the review.


Review of Internal Controls

     For the review of NASA’s Plans for the Mobile Launcher, we reviewed internal controls
     that Kennedy used to provide reasonable assurance that the selection of the Mobile
     Launcher for the SLS was in the best interest of the Government. The controls included
     the process (Architecture Refinement Cycle Reviews) and tools (trade studies and cost
     estimates) the Center used in selecting the Mobile Launcher for the SLS. Except for the
     trade studies being based on preliminary assumptions as described in this report, we
     considered the reviewed internal controls to be adequate.

     For the review of Recovery Act funds used on the Mobile Launcher, our review of
     internal controls included reviews of policies, procedures, and practices that the Agency
     implemented to provide reasonable assurance of compliance with Recovery Act
     requirements as identified in Office of Management and Budget guidance. 27 Based on
     the results of our review, we considered the internal controls over the Recovery Act funds
     associated with the Mobile Launcher to be adequate.


Prior Coverage

     During the past 5 years, neither the NASA Office of Inspector General nor the
     Government Accountability Office issued reports of relevance to the subject of this
     report.




     27
          OMB M-09-15, “Updated Implementing Guidance for the American Recovery and Reinvestment Act of
          2009,” April 3, 2009; OMB M-09-10, “Initial Implementing Guidance for the American Recovery and
          Reinvestment Act of 2009,” February 18, 2009; OMB M-10-34, “Updated Implementing Guidance for
          the American Recovery and Reinvestment Act,” September 24, 2010.



16                                                                                  REPORT NO. IG-12-022
APPENDIX B




                       MANAGEMENT COMMENTS




REPORT NO. IG-12-022                         17
                                                                                 APPENDIX C




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Financial Officer/Recovery Act Senior Accountable Official
     Associate Administrator, Human Exploration and Operations Mission Directorate
        Deputy Associate Administrator, Exploration Systems Development Division
     Recovery Act Implementation Executive
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Kennedy Space Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management
     Recovery Accountability and Transparency Board

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




18                                                                    REPORT NO. IG-12-022
Major Contributors to the Report:
   Rebecca Sharek, Former Director, Space Operations Directorate
   Ridge Bowman, Director, Space Operations Directorate
   Paul Johnson, Project Manager
   Doug Orton, Team Leader
   Linda Hargrove, Management Analyst
   Barbara Moody, Auditor
   Michael Palinkas, Management Analyst
   Dimitra Tsamis, Management Analyst




REPORT NO. IG-12-022                                               19
                                                                                 SEPTEMBER 25, 2012
                                                                        REPORT No. IG-12-022




                                                                                  OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
